OIG Investigative Reports, Identity Theft and Fraud Ring Arrested
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
News Release:
August 25, 2005
Fresno County Sheriff's Department
2200 Fresno Street
Fresno, California 93721
Richard Pierce, Sheriff
Sergeant Michael Lancaster
Vice / Intelligence Unit
559-452-1295
Identity Theft and Fraud Ring Arrested
A joint investigation between the Fresno County Sheriff's Department and the
U.S. Department of Education-Office of Inspector General Agents resulted in ten arrests
warrants issued for individuals living throughout the county of Fresno. The arrest warrants
were served on Wednesday, August 24, 2005 by the two agencies.
The 31-count criminal complaint was filed on August 24, 2005 in the Superior Court of
California, County of Fresno. The complaint listed the defendants as WANDA L. BOURNES,
age 31, PAULETTE PULLEN, age 33, LATASHA M. MAJOR, age 26, AURELIO R.
SANTIAGO JR., age 22, MONIQUE L. GRANT, age 36, SABRINA L. GORDON, age 28,
LAWANA PEARSON, age 28, NICOLE WHEELER, age 32, SHARICE WILLIAMS, age 31,
and ALICE WILLIAMS, age 52, all of Fresno.
The investigation developed that the group used their identities and others' identities to
fraudulently obtain approximately $20,000 in Federal Student Aid funds and State Board of
Governors fee waivers through Fresno Community College in the 2003-2004 school year.
The grand theft charges involve theft of credit cards and/or bankcards of other individuals.
The grand theft total is estimated to be approximately $40,000.
The U.S. Department of Education Office of Inspector General and the State Community
College Police located at Fresno City College initially investigated the fraudulent scheme.
The financial aid portion of the investigation was initiated after an anonymous tip was
received. The identity theft and grand theft portion of the investigation was initiated after a
county employee noticed suspicious charges on their bankcard.
This case is being investigated by Special Agents with the Department of Education Office of
the Inspector General, detectives from the Fresno County Sheriff's Department
Vice/Intelligence Unit, and is being prosecuted by Deputy District Attorney Roger Wilson.
Printable view
Share this page
Last Modified: 11/17/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov